          CLOSEOUT MEMORANDUM FOR CASE M 99120058

On 22 December 1999, an NSF program officer' brought an anonymous letter he
received to our attention. The letter alleged racial discrimination and sexual harassment
of graduate students by members of an academic department at a university.2 First, a
scientist3(subject 1) in the department allegedly discriminated against an unidentified
graduate student on the basis of the student's race. Second, an unidentified subject 2 in
the department allegedly sexually harassed a former graduate s t ~ d e n t . ~

 With respect to the alleged racial discrimination, our review showed that sub'ect 1's last
NSF award closed over a half year before the anonymous letter was written.'5 Because
the letter indicated that the racial discrimination occurred recently, we have no apparent
jurisdiction in this case. Further, even if we had jurisdiction, we could do very little
without knowing who subject 1 allegedly discriminated against.

With respect to the alleged sexual harassment, our review showed that the former
graduate student received her Ph.D. from the university 5 years ago. Therefore, the
alleged harassment must have occurred at least 5 years ago. We considered it
inappropriate to contact the former graduate student about an anonymous allegation from
an unknown third party about an incident that occurred over 5 years ago by an
unidentified subject.

Without additional information, we determined it was not reasonable for us to proceed
with this inquiry. We shared the anonymous letter with NSF's Office of Equal
Opportunity Program (OEOP). OEOP told us that there was nothing it could do with
these allegations because of the limited information and because of the lack of clarity
about whether NSF had jurisdiction in this case.

This case is closed and no further action will be taken.

cc: Investigations, IG.




                                       Page 1 of 1                                M 99-58
